                       U.S. Department of Agriculture
                           Office of Inspector General




American Recovery and Reinvestment Act
 Direct Farm Operating Loans (Phase 2)




                                Audit Report 03703-2-Te
                                          January 2011
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250



DATE:          January 13, 2011

AUDIT
NUMBER:        03703-2-Te

TO:            Jonathan W. Coppess
               Administrator
               Farm Service Agency

ATTN:          Philip Sharp
               Acting Director
               Operations Review and Analysis Staff

FROM:          Gil H. Harden /s/Tracy Lapoint (for)
               Assistant Inspector General
                for Audit

SUBJECT:       American Recovery and Reinvestment Act – Direct Farm Operating Loans
               (Phase 2)


Summary

This report presents the results of our review of the Farm Service Agency’s (FSA) controls
over its loan-making process for direct operating loans. In enacting the American Recovery
and Reinvestment Act of 2009 (Recovery Act), Congress authorized a loan level of up to
$173 million in direct operating loans, but also emphasized the need for accountability and
transparency in the expenditure of funds. As part of the Office of Inspector General’s (OIG)
review of the expenditure of these Recovery Act funds, we judgmentally selected and reviewed
120 borrowers who received $14.4 million in Recovery Act funds. Our purpose was to
validate, through testing, the eligibility of producers participating in the program, to verify that
funds were used for eligible purposes, and to evaluate the effectiveness of FSA’s compliance
with loan-making management controls.

Overall, for these 120 borrowers, we found that FSA generally made direct operating loans to
eligible producers and for eligible purposes. The agency had adequate control over its loan-
making process, and the agency’s employees generally complied with the agency’s operating
procedures for processing loans. We did find that the FSA employees involved in processing
these loans sometimes did not follow all of FSA’s procedures; however, the deficiencies were
not significant.
Jonathan W. Coppess                                                                           Page 2

The deficiencies we noted for three borrowers should have caused FSA to question whether to
approve these loans, totaling $321,500. However, since all three of the borrowers reviewed
either had repaid their loans or were in the process of repaying them, we did not feel that these
minor errors justified formal corrective actions.

Most of the other deficiencies we found involved minor issues, such as not having producers
sign portions of their farm business plan, not ensuring that documentation of lien searches was
included in the file, or not following procedures to ensure that borrowers’ security was
adequate for their loans. We discussed these deficiencies with attorneys at the Office of the
General Counsel, who assured us that these minor deficiencies would not prevent the
Department of Agriculture (USDA) from seeking redress if borrowers failed to repay their
loans. We also found that FSA’s credit quality reviews, which verify that FSA employees’
loan-making decisions comply with the agency’s procedures,1 did not always document that
the reviewers had detected deficiencies in the loan-making process for direct operating loans.
This occurred because instructions were unclear on how reviewers were to report instances of
non-compliance on the credit quality review form.

In our conversations with FSA farm loan programs officials, we did communicate our concern
that, in the future, minor deficiencies of this sort could result in loans being issued to borrowers
who might be unable to repay their loans. FSA officials responded that they would consider
implementing automated controls that would help prevent the types of minor deficiencies we
found, that they would provide guidance to their employees to help them verify that a loan
package was complete before they approved the loan, and that they would revise the credit
quality review instructions to clarify how reviewers should report instances when employees
do not fully comply with the agency’s loan-making procedures.

OIG considers these actions adequate to resolve the issues we noted in our review.
Accordingly, we are not making any recommendations in this report and no further action or
response to us is required.

Background

FSA’s mission is to equitably serve all farmers, ranchers, and agricultural partners through the
delivery of effective, efficient agricultural programs for all Americans. FSA makes direct
operating loans to family farmers and ranchers to help them finance their farming and ranching
operations. In some cases, these farmers have suffered financial setbacks from natural disasters;
others lack the resources necessary to establish and maintain profitable farming operations.

FSA makes and services direct operating loans so that borrowers can purchase livestock, farm
equipment, fertilizer, pesticide, and utilities; borrowers can also use direct operating loan funds
to pay for farm reorganization and to make payments on their farms.




1
    FSA Handbook 1-FLP (Rev. 1), amendment 9, paragraph 27C, dated June 17, 2008.
Jonathan W. Coppess                                                                                     Page 3

FSA will approve loans to applicants only if it determines that:

       ·   the applicant’s farm business plan is feasible;
       ·   the proposed use of loan funds is authorized for the type of loan requested;
       ·   the applicant has been deemed eligible for the type of loan requested;
       ·   all security requirements for the type of loan requested have been met or will be met
           before the loan is closed;
       ·   the applicant’s total indebtedness to FSA, including the proposed loan, will not exceed
           the maximum limits;
       ·   there have been no significant changes in the farm business plan, or the applicant’s
           financial condition since FSA received a completed application; and
       ·   all other pertinent requirements have been met or will be met before the loan is closed. 2

As part of ensuring that FSA is issuing quality loans, the agency reviews its employees who are
processing loan applications to verify that they are following the agency’s operating procedures.
These reviews, known as credit quality reviews, can affect FSA employees’ authority to make
future loans. Employees who are making accurate loans can be granted authority to make more
loans, while employees who are making inaccurate loans can have their loan threshold reduced.

Objectives

Our objective was to test controls over the loan-making process for direct operating loans.
Specifically, we determined (1) if controls over the loan-making process were adequate and
functioning as prescribed to ensure that Recovery Act funds were distributed only to eligible
applicants and used for eligible loan purposes, and (2) the effectiveness of FSA’s management
controls that ensure compliance with the direct operating loan program policies and procedures
(eligibility, use of funds, security of collateral, etc).

Scope and Methodology

We conducted our audit of direct farm operating loans funded by the Recovery Act at FSA’s
national office in Washington, D.C., and at 15 service offices in 6 States. We performed our
audit fieldwork between October 2009 and June 2010.

For fiscal year 2009, FSA obligated 14,086 direct farm operating loans, totaling about
$845 million. Within this larger program, the Recovery Act appropriated $20 million for direct
farm operating loans, resulting in an available loan level of Recovery Act funds totaling
$173 million. Based on our review of loan data in FSA’s direct loan system as of
November 18, 2009, we determined that there were 2,636 Recovery Act loans, totaling about
$169.5 million.3 From these loans, we excluded loans made in noncontiguous States and
territories (due to travel considerations) as well as youth loans (since the amounts were not


2
    FSA Handbook 3-FLP (Rev. 1), amendment 1, paragraph 262C, dated December 31, 2007.
3
  We make no representation as to the accuracy of the agency’s Direct Loan System or the information generated
from it. We accepted the data on face value and used them to select our samples.
Jonathan W. Coppess                                                                                          Page 4

significant). Our universe for the audit consisted of 46 States, 500 service offices, and
1,750 borrowers with 2,229 loans totaling $168 million.

Of the $168 million in Recovery Act loans, we judgmentally selected 6 States, 15 service
offices, and 120 borrowers with 169 loans totaling $14.4 million. We reviewed loans in
Georgia, South Carolina, Iowa, Nebraska, and Texas because these 5 States had a minimum
of 20 borrowers each, at least 2 service offices in different districts, and because they are
proximate to OIG’s office in Temple, Texas.4

The sixth State we judgmentally selected was Oklahoma. Although Oklahoma is proximate, it
did not have a minimum of 20 borrowers with at least 2 service offices in different districts. We
included Oklahoma because we had reviewed it in Phase 1 of this audit. As part of our review
of loans in Oklahoma, we added an additional eight borrowers from two additional service
offices.

To accomplish our audit objectives:

    ·    We reviewed applicable laws, regulations, policies, and procedures to gain an
         understanding of direct operating loans.

    ·    We interviewed FSA officials to identify and assess FSA’s oversight of direct operating
         loans funded by the Recovery Act.

    ·    We obtained and reviewed the most recent Federal Manager’s Financial Integrity Act
         Report for information related to audit coverage.

    ·    We obtained and reviewed the most recent USDA Performance and Accountability
         Report to identify performance measures related to direct operating loans and to
         determine if FSA has established additional performance measures consistent with
         Recovery Act reporting requirements.

    ·    We evaluated whether FSA had quantified the number of jobs created or maintained and
         met the reporting requirements for direct operating loans funded by the Recovery Act.

    ·    We evaluated whether FSA had met the recipient reporting requirements.

    ·    We reviewed borrower loan files to determine if the borrowers met eligibility
         requirements and used loan funds for eligible purposes. We recorded the file review
         results in a standardized collection document and communicated with FSA staff as
         needed to resolve discrepancies identified during the file reviews.

    ·    We evaluated FSA’s policies and procedures for conducting its internal control program
         and review processes, including district director oversight reviews, county operations

4
 Four other States met the criteria of having a minimum of 20 borrowers each and at least 2 servicing offices in
different districts, but these States were more distant and were not reviewed due to costs associated with travel.
Jonathan W. Coppess                                                                       Page 5

       reviews, and credit quality control reviews. We reviewed and analyzed internal control
       and review process reports related to loans funded by the Recovery Act.

   ·   We evaluated whether information for borrowers who are FSA employees was entered
       correctly into the FSA database, in order to ensure that loans were made according to
       FSA procedures.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on the audit objective. The evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.
